TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                        RECOVERY ACT



                 Evaluation of the Internal Revenue Service’s
                 Capability to Ensure Proper Use of Recovery
                                  Act Funds



                                       November 27, 2009

                              Reference Number: 2010-41-011




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2(f) = Risk Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                    HIGHLIGHTS


WHY TIGTA DID THE AUDIT                            WHAT TIGTA FOUND
On February 17, 2009, the American Recovery        The IRS uses certain methods to verify the
and Reinvestment Act of 2009 (Recovery Act)        accuracy and eligibility of tax benefits and
was enacted. The provisions in this law are        credits claimed on tax returns. The
estimated to cost a total of $787 billion over     validation process can occur 1) before a tax
11 years. Federal agencies across the country      return is processed and before funds have
will be responsible for distributing billions of   been released or 2) after a tax return is
dollars of Recovery Act funding to qualified       processed and after funds have been
recipients in discretionary and mandatory          released.
programs designed to revive the ailing
                                                   The IRS cannot verify the accuracy of all of
economy and create a more sustainable future.
                                                   the legislated requirements before the tax
The Obama Administration has asked Federal         return has completed processing for
agencies to ensure Recovery Act funds are          39 Recovery Act provisions (13 individual
used for authorized purposes and every step is     provisions and 26 business provisions). To
taken to prevent fraud, waste, and abuse.          a great extent, the IRS relies on taxpayers’
Congress appropriated $7 million to the            voluntary compliance with tax laws to
Treasury Inspector General for Tax                 accurately report income and claim only
Administration to provide oversight and            those tax benefits and credits to which they
conduct audits of the Internal Revenue             are entitled.
Service’s (IRS) administration of Recovery
                                                   Verifying specific eligibility requirements
Act programs. The objective of this review
                                                   for these 39 provisions would require the
was to assess the IRS’ ability to verify tax
                                                   IRS to request specific documentation from
return data and taxpayers’ eligibility for
                                                   the taxpayer. The IRS attempts to weigh the
tax-related Recovery Act benefits and credits.
                                                   potential burden that requiring this
IMPACT ON TAXPAYERS                                documentation could place on taxpayers
                                                   when implementing provisions. In addition,
The Recovery Act contains 56 tax provisions,
                                                   limitations of its electronic filing program
20 individual taxpayer provisions, and
                                                   prevent the IRS from transferring supporting
36 business taxpayer provisions. The
                                                   (paper) documentation into an electronic
individual taxpayer provisions will cost nearly
                                                   format.
$252 billion and provide tax relief to working
or retired Americans and their families. The       We are not including recommendations in
business taxpayer provisions will cost more        this report. We have ongoing and planned
than $74 billion and provide several tax relief    audits that will focus on specific Recovery
incentives for businesses. The IRS is unable to    Act benefits and credits. We will include
verify eligibility for the majority of Recovery    recommendations as appropriate as part of
Act benefits at the time a tax return is           these reviews.
processed.
                                                 DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                November 27, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Evaluation of the Internal Revenue Service’s
                                 Capability to Ensure Proper Use of Recovery Act Funds
                                 (Audit # 200940137)

 This report presents the results of our review to assess the Internal Revenue Service’s (IRS)
 ability to verify tax return data and taxpayers’ eligibility for tax-related American Recovery and
 Reinvestment Act of 2009 (Recovery Act) 1 benefits and credits. This audit was included as part
 of our Fiscal Year 2010 Annual Audit Plan under the major management challenge of
 Implementing Tax Law Changes.
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in oversight activities of IRS programs.
 This audit was conducted using Recovery Act funds.
 The IRS did not provide a written response to the draft audit report.
 Copies of this report are also being sent to the IRS managers affected by the report finding.
 Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
 Inspector General for Audit (Returns Processing and Account Services), at (202) 622-5916.




 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                       Evaluation of the Internal Revenue Service’s
                            Capability to Ensure Proper Use of
                                   Recovery Act Funds




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          The Internal Revenue Service Is Unable to Verify Eligibility
          for the Majority of Recovery Act Benefits at the Time a
          Tax Return Is Processed................................................................................Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Examples - Treasury Inspector General for Tax Administration
          Reports Issued in Fiscal Years 2008 and 2009 With Issues Related
          to Math Error Authority ................................................................................Page 16
        Evaluation of the Internal Revenue Service’s
             Capability to Ensure Proper Use of
                    Recovery Act Funds




                       Abbreviations

AMT              Alternative Minimum Tax
IRS              Internal Revenue Service
SSN              Social Security Number
TIGTA            Treasury Inspector General for Tax Administration
                       Evaluation of the Internal Revenue Service’s
                            Capability to Ensure Proper Use of
                                   Recovery Act Funds




                                               Background

On February 17, 2009, the American Recovery and Reinvestment Act of 2009 (Recovery Act) 1
was enacted. The provisions in this law are estimated to cost a total of $787 billion over
11 years. Federal agencies across the country will be responsible for distributing billions of
dollars of Recovery Act funding to qualified recipients in discretionary and mandatory programs
designed to revive the ailing economy and create a more sustainable future. The Recovery Act
contains 56 tax provisions, 20 individual taxpayer provisions, and 36 business taxpayer
provisions.
Individual Taxpayer Provisions
The 20 individual taxpayer provisions will cost nearly $252 billion. These provisions provide
tax relief to working or retired Americans and their families and include several refundable tax
credits, a sales tax deduction on motor vehicles, Alternative Minimum Tax (AMT) relief for
middle-income taxpayers, a reduction in taxable unemployment compensation, a payment for
Social Security recipients, a credit for government retirees, tax credits that promote investing in
renewable sources of energy, and changes to the Health Coverage Tax Credit.
Business Taxpayer Provisions
Although there are 36 provisions amounting to more than $74 billion in costs which are targeted
for businesses, this report will focus on 26 that directly affect the filing of tax returns by
businesses. These 26 provisions amount to more than $48 billion in costs and reduced revenue
to the Government. They provide several tax relief incentives for businesses, encourage the
investment in sources of renewable energy, and promote the hiring of unemployed veterans.
They also allow for the purchase of bonds to provide for construction, financing, environmental,
and manufacturing improvements.
In addition, Congress appropriated $203 million2 to the Internal Revenue Service (IRS) to
oversee the administration of these provisions. The Treasury Inspector General for Tax
Administration (TIGTA) was provided $7 million to provide oversight and conduct audits of the
IRS’ administration of Recovery Act programs. Figure 1 summarizes the 20 Recovery Act
individual tax provisions. Figure 2 summarizes the 26 Recovery Act business tax provisions.




1
    Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
    $123 million for all the tax provisions plus $80 million for the Health Coverage Tax Credit Program.
                                                                                                           Page 1
                          Evaluation of the Internal Revenue Service’s
                               Capability to Ensure Proper Use of
                                      Recovery Act Funds



       Figure 1: Summary of Recovery Act Tax Changes for Individual Taxpayers
                                                 Cost in      Taxpayers
     Recovery Act Tax Change 3                  Millions 4    Impacted 5                           General Purpose
 Making Work Pay Credit                          $ 116,199     116.3 million Reduce tax burden for working Americans.
 Increase in Earned Income Tax Credit               $ 4,663     18.2 million Raise low-income taxpayers above the poverty line.
 Increase in Refundable Portion of Child Tax      $ 14,830      15.6 million Reduce the financial burden of raising a family.
 Credit
 Increase in Hope Credit 6                        $ 13,907      10.2 million Help families pay for the costs of higher education.
 Computers Allowed as Education Expense                 $6            5,000 Encourage the purchase of computers for students of higher
 for Section 529 Education Saving Accounts                                   learning.
 Increase in First-Time Homebuyer Credit           $ 6,638         1 million Encourage buying homes to stimulate the weak housing
                                                                             market.
 The First $2,400 of Unemployment                  $ 4,740       7.4 million Reduce the tax burden of unemployed workers.
 Compensation Is Nontaxable
 Additional Deduction for State Sales Tax on        $1,684       8.5 million Encourage the purchase of cars, light trucks, motorcycles,
 Certain Motor Vehicles                                                      and motor vehicles with a cost less than $49,500.
 AMT Relief (Extended Nonrefundable                $69,759        26 million Protect millions of middle-income taxpayers, who would
 Personal Credits and the AMT Exemption)                                     otherwise be subject to the AMT.
 Modification of Nonbusiness Energy                $ 2,034       4.3 million Encourage the purchase of energy efficient property
 Property Credit                                                             designed to reduce heat loss during cold months or heat gain
                                                                             during warm months for use in a principal residence.
 Modification of Residential Energy Efficient        $ 268      1.67 million Encourage the purchase of renewable sources of energy for
 Property Credit                                                             use in a home.
 Qualified Plug-In Electric Drive Motor            $ 2,002            8,000 Encourage the purchase of motor vehicles (or the conversion
 Vehicles Credit, Certain Plug-In Electric                                   of motor vehicles to those) that operate on clean renewable
 Vehicles Credit, Conversion Kits, and                                       sources of energy.
 Alternative Motor Vehicle Credit as a
 Personal Credit Against the AMT
 Increased Exclusion for Employer Provided           $ 192     Less than 8.4 Reduce the consumption of fossil fuels by promoting the use
 Commuter Transit Benefits                                           million of more environmentally friendly commuter transit options.
 Health Coverage Tax Credit                          $ 457           50,000 Assist certified retirees and displaced workers with health
 (12 Sections 1899A – L)                                                     insurance costs.
 $250 Economic Recovery Payment to                $ 14,225          676,000 Reduce financial burden on individuals receiving Social
 Certain Individuals                                                         Security, railroad retirement, disability, or pension benefits.
 $250 Special Credit for Certain Government          $ 218          696,000 Reduce tax burden on government retirees receiving a
 Retirees                                                                    pension but not eligible for Social Security Benefits.
   TOTAL ESTIMATED COST                $251,822
Source: Pub. L. No. 111-5, 123 Stat. 115 (2009) and TIGTA analysis.


 3
   AMT relief includes 2 provisions and the Plug-In Vehicle section includes 4 provisions for a total of 20 provisions.
 4
   Estimated over 11 years (2009 through 2019) by the Joint Committee of Taxation, JCX-19-09, February 12, 2009.
 5
   Estimated by the TIGTA based on historical statistics from Tax Year 2006 and Tax Year 2009 projections.
 6
   This is the American Opportunity Tax Credit.
                                                                                                                                   Page 2
                         Evaluation of the Internal Revenue Service’s
                              Capability to Ensure Proper Use of
                                     Recovery Act Funds



      Figure 2: Summary of Recovery Act Tax Changes for Business Taxpayers
                                                    Cost in
       Recovery Act Tax Change 7                   Millions 8                               General Purpose
Extension and Modification of Renewable Energy        $ 13,143 Extend eligibility dates of credit for eligible taxpayers.
Production Tax Credit
Election of Investment Tax Credit in Lieu of             $ 285 Allow electricity producing facilities to choose between either investment
Production Tax Credit                                          or production tax credits.
Removal of Limitations on Certain Energy Credits         $ 604 Increase potential credits by eliminating dollar caps for certain property.
Advanced Energy Investment Credit                      $ 1,647 Encourage the manufacturing of advanced energy projects by providing a
                                                               30-percent credit for qualifying property.
Modification of Tax Credit for Alternative                $ 54 Increase potential credit by raising cap limits.
Refueling Property
Extension of Bonus Depreciation for an                 $ 5,879 Allow temporary benefit to recover costs faster than ordinary
Additional Year and Election to Accelerate                     depreciation and allow businesses to choose recognition of a portion of
Recognition of Research and Development                        credits instead of depreciation.
Credits in Lieu of Bonus Depreciation
Extension of Enhanced Small Business Expensing            $ 41 Allow businesses to quickly recover capital expenses in lieu of
for an Additional Year                                         depreciation.
5-Year Carryback of Net Operating Losses for             $ 947 Allow greater time period to use operating losses.
Small Business
Small Business Estimated Tax Payment Relief                $ 0 Reduce required estimated tax payments for certain small businesses.
Debt Instrument Rule Changes (Delayed                  $1,622 Allow deferral and ratable recognition of cancellation of debt income and
Recognition of Certain Cancellation of Debt                    allow deductions for indebtedness.
Income and Rule Modification on High-Yield
Discount Obligations)
Small Business Capital Gains                             $ 829 Increase percentage excluded of gain for qualified long-term small
                                                               business stock.
Temporary Reduction of the S Corporation                 $ 415 Reduce required holding period for assets of taxable corporations
Built-In Gains Holding Period                                  converting to S corporations.
Incentives to Hire Unemployed Veterans and               $ 231 Broaden targeted groups for purposes of the Work Opportunity Credit.
Disconnected Youth
Treatment of Certain Ownership Changes for             $ 3,163 Clarified rules for companies who are restructuring pursuant to the
Purposes of Limitations on Net Operating Loss                  Emergency Economic Stabilization Act and application of Section 382.
Carry Forwards and Certain Built-In Losses
Clarification of Regulations Related to               - $ 6,977 Repealed the liberalized rules in the tax code that allowed claiming of
Limitations on Certain Built-In Losses Following          (gain) losses incurred by prior owner.
an Ownership Change
New Markets Tax Credit                                   $ 815 Encourage qualified equity investment by increasing amount of available
                                                               credits.


7
  Debt Instrument rule changes and the Modification of Tax-Exempt Interest Expense Rules of Financial Institutions
include 2 provisions each for a total of 26 provisions.
8
  We were unable to accurately estimate the number of business taxpayers impacted by each of the provisions.
                                                                                                                                 Page 3
                         Evaluation of the Internal Revenue Service’s
                              Capability to Ensure Proper Use of
                                     Recovery Act Funds



                                                   Cost in
       Recovery Act Tax Change 7                  Millions 8                              General Purpose
Modification of Tax-Exempt Interest Expense           $ 3,234 Reduce tax burden of financial institutions by modifying rules for
Rules of Financial Institutions (DeMinimus Safe               investments in tax-exempt municipal bonds.
Harbor Exception and Small Issuer Exception)
AMT Relief for Costs of Issuing Bonds                   $ 555 Reduce financial burden on taxpayers by modifying and suspending the
                                                              AMT for certain private activity bonds.
Clean Renewable Energy Bonds                            $ 578 Provide financing of tax credit bonds for qualified renewable energy
                                                              facilities that generate electricity.
Qualified Energy Conservation Bonds                     $ 803 Provide financing of tax credit bonds for government programs and
                                                              initiatives to reduce greenhouse gas emissions.
Recovery Zone Bonds                                   $ 5,371 Encourage investment in economic recovery zones for tax credit bonds.
Qualified School Construction Bonds                   $ 9,877 Encourage issuance of tax credit bonds for construction, rehabilitation,
                                                              repair, or acquisition of land for public school facilities.
Qualified Zone Academy Bonds                          $ 1,045 Provide additional funds for tax credit bonds to finance renovations and
                                                              other improvements for qualified zone academies.
Build America Bonds                                   $ 4,348 Allow State and local governments the option of issuing tax credit bonds
                                                              instead of tax-exempt governmental obligation bonds.
    TOTAL ESTIMATED COST                   $ 48,509
Source: Pub. L. No. 111-5, 123 Stat. 115 (2009) and Joint Committee on Taxation JCX-19-09, dated
February 12, 2009.

This review was performed at the Austin Submission Processing Site in Austin, Texas, the
Ogden Submission Processing Site in Ogden, Utah, and was discussed with the IRS Recovery
Act Team responsible for overseeing the IRS’ administration of the Recovery Act, executives in
the Submission Processing function, and personnel in the Wage and Investment Division
Headquarters during the period June 2009 through September 2009. We relied on the Recovery
Act tax legislation, Vice President Biden’s May 2009 Quarterly Report on the Recovery Act, and
other documents from Recovery.gov. We conducted this review in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                                                               Page 4
                 Evaluation of the Internal Revenue Service’s
                      Capability to Ensure Proper Use of
                             Recovery Act Funds




                                Results of Review

The President and Congress have announced their commitment to spending recovery dollars with
an unprecedented level of transparency and accountability. To accomplish this, the Obama
Administration has established five broad requirements that all agencies must follow in order to
meet crucial accountability objectives. Posted on Recovery.gov, the third requirement asks
Federal agencies to ensure Recovery Act funds are used for authorized
purposes and that every step be taken to prevent instances of fraud,
waste, and abuse. Guidance on identifying, prioritizing, and mitigating
implementation risks associated with implementing Recovery Act
programs is also provided. In assessing their risks, agencies receiving
funds for Recovery Act programs are asked to consider:
   •   Do they have sufficient resources to achieve program objectives and ensure awards are
       properly made in accordance with statutory and regulatory requirements?
   •   Are existing internal controls sufficient to mitigate the risk of fraud, waste, and abuse?

Implementing tax legislation
When Congress develops a piece of tax legislation, it considers and decides which requirements
taxpayers must meet to qualify for a given tax benefit. Such requirements may include having a
certain income level or filing status, having dependent children, having a certain profession, not
being employed, etc. Some requirements limit the time period during which a given credit or
deduction is available. Others require the taxpayer to purchase something, such as a home with
the First-Time Homebuyer Credit or energy efficient home improvements with the Residential
Energy Credit.
Once Congress enacts tax legislation, the IRS reviews the law to determine what actions it must
take to correctly implement the law to ensure legislated requirements will be satisfied. The IRS
Legislative Analysis Tracking Implementation Services office is responsible for managing the
implementation, planning, and monitoring of legislation having significant impact on the IRS.
Actions the IRS takes in response to new legislation often include creating new tax forms,
updating publications, revising internal operating procedures, and updating programs for
processing tax returns.

Methods the IRS uses to validate tax return data
The IRS uses certain methods to verify the accuracy and eligibility of tax benefits and credits
claimed on tax returns. The validation process can occur 1) before a tax return is processed and


                                                                                             Page 5
                   Evaluation of the Internal Revenue Service’s
                        Capability to Ensure Proper Use of
                               Recovery Act Funds



before funds have been released or 2) after a tax return is processed and after funds have been
released.
Before a Tax Return Has Completed Processing
The ability of the IRS to verify the accuracy and eligibility of tax benefits and credits before a
tax return has completed processing and prior to release of funds is the most efficient and
effective approach for the IRS. In recent testimony before Congress, the General Accountability
Office stated:
        Our work has shown that building internal controls in up front is of the utmost
        importance and that fraud prevention is the most efficient and effective means to
        minimize fraud, waste, and abuse. Once federal dollars are disbursed fraudulently or
        improperly, the government is only likely to recover a few pennies on the dollar. Thus,
        preventive controls are the most important component of a fraud prevention system.
        These controls prevent ineligible individuals and questionable firms from gaining access
        to government funds in the first place. 9
Preventive identification efforts on the part of the IRS include the development of computer
programs to detect errors on electronically filed tax returns before they are accepted.
Specifically, electronically filed tax returns are put through a number of validations which check
for more than 600 possible errors before the IRS accepts the tax return. Data files used for data
validation include files from the Social Security Administration and the Department of Defense.
When errors are detected, the tax returns are rejected back to the transmitter to be corrected.
Errors include incorrect Social Security Numbers (SSN) for dependents, incorrect birthdates,
numbers in alphabetic fields, and invalid zip codes.
Once a tax return is received (paper filed) or accepted (electronically filed) by the IRS, selected
information from the tax return is validated and/or verified by the IRS. Checks include verifying
the mathematical correctness of the tax return and identifying other potential errors. If a tax
return is identified as not passing validation/verification, the tax return is forwarded to the IRS
Error Resolution function to be manually reviewed and corrected.
After a Tax Return Has Been Processed
After a tax return has been processed and subsequent to the release of funds, the IRS has limited
means by which it can validate the accuracy of tax benefits and credits previously claimed. The
IRS can match third-party documents to information listed on the tax return. For example, the
IRS receives third-party wage and earnings information including Wage and Tax Statements
(Form W-2) and Miscellaneous Income (Form 1099). The IRS Automated Underreporter
Program matches these third-party documents to wage and earnings reported on an individual’s


9
 American Recovery and Reinvestment Act: GAO's Role in Helping to Ensure Accountability and Transparency
(GAO-09-453T, dated March 2009).
                                                                                                    Page 6
                       Evaluation of the Internal Revenue Service’s
                            Capability to Ensure Proper Use of
                                   Recovery Act Funds



tax return to ensure the accuracy of reporting. If a discrepancy exists, the IRS sends
correspondence to the taxpayer for confirmation and submission of additional tax owed. For
business taxpayers, recent legislation requires credit card companies to provide information to
the IRS regarding businesses that receive credit card payments. The IRS expects to be able to
use this information to match against income that businesses report on their tax returns.
In addition, the IRS can perform an audit of the taxpayer records by a field examination, office
audit, or correspondence audit. Field examinations include reviews of complex issues that
require a face-to-face interview at a taxpayer’s home or business. Office audits are conducted at
local IRS offices and focus on less complex issues than field examinations but more complex
issues than correspondence audits. Correspondence audits focus on simple issues on individual
tax returns and are conducted by mail. In all cases, taxpayers are asked to provide the
documentation necessary to verify a variety of selected issues that may include certain tax
benefits and credits claimed on a tax return.

The Internal Revenue Service Is Unable to Verify Eligibility for the
Majority of Recovery Act Benefits at the Time a Tax Return Is
Processed
The IRS cannot verify the accuracy of all of the legislated requirements for 13 of the
20 Recovery Act tax benefits/credits for individual taxpayers and all of the 26 provisions for
businesses before the tax return has completed processing. The IRS relies on taxpayers to
comply with tax laws and provide correct information on their tax returns, including accurately
reporting income and claiming only those tax benefits and credits to which they are entitled.
Verifying specific eligibility requirements for these 39 provisions 10 would require the IRS to
request specific documentation from the taxpayer.
Figure 3 summarizes Recovery Act tax provisions that affect individual taxpayers and
Figure 4 summarizes Recovery Act tax provisions that affect business taxpayers. These figures
show whether the IRS can verify all the requirements included in the tax legislation that a
taxpayer must meet to qualify for the Recovery Act tax benefit or credit before the tax return has
completed processing or after the tax return has been processed. Some of the provisions are not
included in these figures as noted below:
       •   In Figure 3, 3 of the 20 individual provisions are not included. These include a one-time,
           $250 payment to Social Security, disability, and railroad retirement recipients which the
           Social Security Administration is responsible for issuing. The remaining two provisions
           (Computers Allowed as Education Expense for Education Savings Accounts and
           Increased Exclusion for Employer Provided Commuter Transit Costs) are not reported on
           an individual tax return. In addition, we combined the two AMT provisions on one line.

10
     These 39 provisions include 13 individual provisions and 26 business provisions.
                                                                                              Page 7
                       Evaluation of the Internal Revenue Service’s
                            Capability to Ensure Proper Use of
                                   Recovery Act Funds



       •   In Figure 4, 10 of the 36 business provisions are not included because they do not directly
           affect the filing of tax returns by businesses.
Individual and business provisions have multiple requirements that have to be met to qualify for
the tax benefit or credit. For a number of Recovery Act provisions, the IRS can verify many of
the requirements that need to be met to qualify for the tax benefit or credit before a tax return has
completed processing. In Figures 3 and 4:
•      A “No” in column two indicates that the IRS cannot verify one or more of the requirements
       to qualify for the specific provision.
•      A “Yes” in column two indicates that the specific Recovery Act requirements can be
       computer validated before a tax return has completed processing. A “Yes” followed by an
       asterisk (*) indicates that other requirements from previous non-Recovery Act legislation
       relating to the Recovery Act tax benefit or credit cannot be validated. For example, the IRS
       can validate the Recovery Act requirement that provides for an increase in the Earned
       Income Tax Credit for individuals with three or more children. However, to be eligible for
       the Earned Income Tax Credit, the following requirements must be met:
       •   The qualifying child (or children) must have lived with the taxpayer in the United States
           for more than one-half of the tax year. 11
       •   If the taxpayer does not have a qualifying child, the taxpayer must have lived in the
           United States for more than one-half of the tax year. 12
The above requirements cannot be validated without an audit of the taxpayer’s records.
       •   A “N/A” in column three indicates that the specific Recovery Act requirements for this
           provision cannot be verified by a third-party document (e.g., a Form W-2 or
           Form 1099-INT) because no such document is reported to the IRS. However, a “N/A”
           followed by an asterisk (*) represents that one or more requirements from past
           (non-Recovery Act) legislation for this Recovery Act tax benefit or credit can be verified
           by a third-party document.




11
     Internal Revenue Code Section 32(c)(1)(A)(i) and Section 32(c)(1)(A)(ii)(I).
12
     Internal Revenue Code Section 32(c)(1)(A)(ii)(I).
                                                                                               Page 8
                            Evaluation of the Internal Revenue Service’s
                                 Capability to Ensure Proper Use of
                                        Recovery Act Funds



          Figure 3: Assessment of the IRS’ Ability to Verify the Accuracy and/or
                Eligibility of Recovery Act Individual Taxpayer Provisions

                                                                                                 When Can the IRS Verify?
                                                                                 Before the Tax         Through             Through Audit
                                                                                  Return Has           Third-Party              of the
                                                                                  Completed            Document              Taxpayers’
                         Recovery Act Tax Change                                  Processing            Matching               Records
Making Work Pay Credit                                                             ***2(f)***            ***2(f)***              Yes
Increase in Earned Income Tax Credit                                               ***2(f)***            ***2(f)***              Yes
Increase in Refundable Portion of Child Tax Credit                                 ***2(f)***            ***2(f)***              Yes
Increase in Hope Credit (also known as The American Opportunity Tax Credit)        ***2(f)***            ***2(f)***              Yes
Increase in First-Time Homebuyer Credit                                            ***2(f)***            ***2(f)***              Yes
The First $2,400 of Unemployment Compensation Is Nontaxable                        ***2(f)***            ***2(f)***              Yes
Additional Deduction for State Sales Tax on Certain Motor Vehicles                  ***2(f)***           ***2(f)***              Yes
AMT Relief (2 provisions)                                                          ***2(f)***            ***2(f)***              Yes
Modification of Nonbusiness Energy Property Credit                                 ***2(f)***            ***2(f)***              Yes
Modification of Residential Energy Efficient Property Credit                       ***2(f)***            ***2(f)***              Yes
Qualified Plug-In Electric Drive Motor Vehicles Credit                             ***2(f)***            ***2(f)***              Yes
Certain Plug-In Electric Vehicles Credit                                           ***2(f)***            ***2(f)***              Yes
Conversion Kits                                                                    ***2(f)***            ***2(f)***              Yes
Treatment of Alternative Motor Vehicle Credit as a Personal Credit Against the     ***2(f)***            ***2(f)***              Yes
AMT
Expansion of Health Coverage Tax Credit                                            ***2(f)***            ***2(f)***              Yes
Special $250 Credit for Certain Government Retirees                                ***2(f)***            ***2(f)***              Yes
Source: Pub. L. No. 111-5, 123 Stat. 115 (2009).

The requirements for business tax returns can be even more difficult to validate due to the
complexity of the tax returns and the number of supporting schedules and documents associated
with the tax returns. In most cases, it would be very burdensome to require a business to include
all the necessary supporting documentation to validate the claim at the time the tax return is
filed.




                                                                                                                            Page 9
                         Evaluation of the Internal Revenue Service’s
                              Capability to Ensure Proper Use of
                                     Recovery Act Funds



         Figure 4: Assessment of the IRS’ Ability to Verify the Accuracy and/or
               Eligibility of Recovery Act Business Taxpayer Provisions

                                                                                                 When Can the IRS Verify?
                                                                                  Before the Tax         Through            Through Audit
                                                                                   Return Has           Third-Party             of the
                                                                                   Completed            Document             Taxpayers’
                       Recovery Act Tax Change13                                   Processing            Matching              Records
 Extension and Modification of Renewable Energy Production Tax Credit               ***2(f)***           ***2(f)***              Yes
 Election of Investment Credit in Lieu of Production Credit                         ***2(f)***           ***2(f)***              Yes
 Removal of Dollar Limitations on Certain Energy Credits                            ***2(f)***           ***2(f)***              Yes
 Advanced Energy Investment Credit                                                  ***2(f)***           ***2(f)***              Yes
 Modification of Tax Credit for Alternative Refueling Property                      ***2(f)***           ***2(f)***              Yes
 Extension of Bonus Depreciation for an Additional Year and Election to             ***2(f)***           ***2(f)***              Yes
 Accelerate Recognition of Research and Development Credits in Lieu of
 Bonus Depreciation
 Extension of Enhanced Small Business Expensing for an Additional Year              ***2(f)***           ***2(f)***              Yes
 5-Year Carryback of Net Operating Losses for Small Business                        ***2(f)***           ***2(f)***              Yes
 Small Business Estimated Tax Payment Relief                                        ***2(f)***           ***2(f)***              Yes
 Debt Instrument Rule Changes (Delayed Recognition of Certain Cancellation          ***2(f)***           ***2(f)***              Yes
 of Debt Income and Rule Modification on High-Yield Discount Obligations)
 Small Business Capital Gains                                                       ***2(f)***           ***2(f)***              Yes
 Temporary Reduction of the S Corporation Built-In Gains Holding Period             ***2(f)***           ***2(f)***              Yes
 Incentives to Hire Unemployed Veterans and Disconnected Youth                      ***2(f)***           ***2(f)***              Yes
 Clarification of Regulations Related to Limitations on Certain Built-In Losses     ***2(f)***           ***2(f)***              Yes
 Following an Ownership Change
 Treatment of Certain Ownership Changes for Purposes of Limitations on Net          ***2(f)***           ***2(f)***              Yes
 Operating Loss Carryforwards and Certain Built-In Losses
 New Markets Tax Credit                                                             ***2(f)***           ***2(f)***              Yes
 Clean Renewable Energy Bonds                                                       ***2(f)***           ***2(f)***              Yes
 Qualified Energy Conservation Bonds                                                ***2(f)***           ***2(f)***              Yes
 Recovery Zone Bonds                                                                ***2(f)***           ***2(f)***              Yes
 Qualified School Construction Bonds                                                ***2(f)***           ***2(f)***              Yes


13
  Debt Instrument Rule Changes and the Modification of Tax-Exempt Interest Expense Rules of Financial
Institutions include 2 provisions each for a total of 26 provisions.
                                                                                                                        Page 10
                        Evaluation of the Internal Revenue Service’s
                             Capability to Ensure Proper Use of
                                    Recovery Act Funds



                                                                                              When Can the IRS Verify?
                                                                               Before the Tax         Through            Through Audit
                                                                                Return Has           Third-Party             of the
                                                                                Completed            Document             Taxpayers’
                       Recovery Act Tax Change13                                Processing            Matching              Records
 Qualified Zone Academy Bonds                                                    ***2(f)***           ***2(f)***              Yes
 Build America Bonds                                                             ***2(f)***           ***2(f)***              Yes
 Modification of Tax-Exempt Interest Expense Rules of Financial Institutions     ***2(f)***           ***2(f)***              Yes
 (DeMinimus Safe Harbor Exception and Small Issuer Exception)
 AMT Relief for Costs of Issuing Bonds                                           ***2(f)***           ***2(f)***              Yes
Source: Pub. L. No. 111-5, 123 Stat. 115 (2009) and TIGTA analysis.

The IRS attempts to weigh the potential burden that providing documentation can place on
taxpayers when implementing provisions. In addition, limitations of its electronic filing program
prevent the IRS from transferring supporting (paper) documentation into an electronic format.
For example, on November 25, 2008, we issued a memorandum to the Commissioner, Wage and
Investment Division, and recommended that the IRS require taxpayers to provide documentation
to verify the purchase of a house for the purpose of claiming the First-Time Homebuyer Credit.
In response, the IRS stated that our recommendation would be unnecessarily burdensome and
would potentially exclude as many as 2 million taxpayers from electronically filing.
It should be noted that the IRS was not provided with math error authority14 to stop the payment
of erroneous First-Time Homebuyer Credit claims. As such, if the IRS identifies an erroneous
claim, an audit must be performed. The TIGTA has reported previously on the benefits of
expanding math error authority to allow the IRS to disallow taxpayer claims at the time a tax
return is processed.15 As of July 25, 2009, we have identified 73,799 taxpayers who may have
incorrectly claimed $504 million in the First-Time Homebuyer Credit. Expansion of math error
authority would allow the IRS to efficiently disallow erroneous taxpayer claims during the
processing of a tax return and prior to the release of funds.

14
   Math error authority allows the IRS to systemically disallow certain taxpayer claims at the time a tax return is
processed.
15
   See Appendix IV for a list of reports issued in Fiscal Years 2008 and 2009.




                                                                                                                     Page 11
                Evaluation of the Internal Revenue Service’s
                     Capability to Ensure Proper Use of
                            Recovery Act Funds



We are not including recommendations in this report. We have ongoing and planned audits that
will focus on specific Recovery Act benefits and credits. We will include recommendations as
appropriate as part of these reviews.




                                                                                     Page 12
                       Evaluation of the Internal Revenue Service’s
                            Capability to Ensure Proper Use of
                                   Recovery Act Funds



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the IRS’ ability to verify tax return data and
taxpayers’ eligibility for tax-related American Recovery and Reinvestment Act (Recovery Act) 1
benefits and credits. This review is being conducted in response to the mandate that agencies
ensure Recovery Act funds are used for authorized purposes and steps are taken to prevent
instances of fraud, waste, error, and abuse. To accomplish our objective, we:
I.         Identified which Recovery Act tax provisions impact individual taxpayers and assessed
           the IRS’ ability to ensure only eligible taxpayers receive Recovery Act funds.
           A. For each tax provision, determined its general purpose, the estimated cost to the
              United States Government, and the estimated number of taxpayers affected.
           B. Identified and described the process the IRS uses to implement tax legislation and the
              methods it uses to validate tax return data.
           C. Assessed the IRS’ ability to verify the accuracy of tax return data and ensure that only
              eligible taxpayers receive Recovery Act tax benefits in accordance with Recovery Act
              legislation.
II.        Identified which Recovery Act tax provisions impact business taxpayers and assessed the
           IRS’ ability to ensure only eligible taxpayers receive Recovery Act funds.
           A. For each tax provision, determined its general purpose and the estimated cost to the
              United States Government.
           B. Assessed the IRS’ ability to verify the accuracy of tax return data and ensure that only
              eligible taxpayers receive Recovery Act tax benefits in accordance with Recovery Act
              legislation.




1
    Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                              Page 13
                Evaluation of the Internal Revenue Service’s
                     Capability to Ensure Proper Use of
                            Recovery Act Funds



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Russell Martin, Director
Larry Madsen, Audit Manager
Tina Parmer, Audit Manager
Bonnie Shanks, Lead Auditor
Kyle Bambrough, Senior Auditor
Sharla Robinson, Senior Auditor




                                                                                    Page 14
               Evaluation of the Internal Revenue Service’s
                    Capability to Ensure Proper Use of
                           Recovery Act Funds



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Senior Operations Advisor, Wage and Investment Division SE:W:S
                 Chief, Program Evaluation and Improvement, Wage and Investment Division
                 SE:W:S:PRA:PEI




                                                                                  Page 15
                Evaluation of the Internal Revenue Service’s
                     Capability to Ensure Proper Use of
                            Recovery Act Funds



                                                                                Appendix IV

   Examples - Treasury Inspector General for Tax
 Administration Reports Issued in Fiscal Years 2008
and 2009 With Issues Related to Math Error Authority

1. Evaluation of the Planning, Computation, and Issuance of the Recovery Rebate Credit
   (Reference Number 2009-40-129, dated September 9, 2009).
 The TIGTA identified that legislation did not provide the IRS with math error authority to
 prevent individuals without valid SSNs from receiving the recovery rebate credit. Although
 the legislation prohibited individuals without a valid SSN from receiving the rebate credit, the
 IRS was not provided with math error authority that would have enabled it to effectively
 prevent the issuance of rebate credits to these individuals at the time a tax return was
 processed. As a result, the IRS erroneously provided more than $27 million in recovery rebate
 credits to more than 44,000 taxpayers who did not have a valid SSN.
 The TIGTA issued a memorandum to the IRS in September 2008 raising concerns about its
 lack of math error authority. We recommended the IRS work with the Assistant Secretary of
 the Treasury for Tax Policy to obtain math error authority for recovery rebate claims on tax
 returns without a valid SSN. IRS management responded that they had raised concerns to the
 Assistant Secretary about the lack of math error authority for this issue. However, no
 legislative proposal was put forth to provide this authority.
2. Actions Are Needed to Ensure Proper Use of Individual Taxpayer Identification Numbers
   and to Verify or Limit Refundable Credit Claims (Reference Number 2009-40-057, dated
   March 31, 2009).
 The TIGTA identified taxpayers without a valid SSN receiving potential Additional Child Tax
 Credits of almost $1.8 billion on more than 1.2 million tax returns and recommended
 legislation to clarify whether or not refundable tax credits such as the Additional Child Tax
 Credit may be paid to filers without a valid SSN and, if these credits may not be paid, to
 provide IRS math error authority to disallow associated claims for the credits. Disallowance of
 the Additional Child Tax Credit to filers without a valid SSN would reduce Federal outlays by
 $8.9 billion over 5 years. The IRS agreed to explore with the Department of the Treasury
 legislative changes to address the payment of refundable credits to taxpayers who file without
 an SSN.




                                                                                         Page 16
                Evaluation of the Internal Revenue Service’s
                     Capability to Ensure Proper Use of
                            Recovery Act Funds



3. The Earned Income Tax Credit Program Has Made Advances; However, Alternatives to
   Traditional Compliance Methods Are Needed to Stop Billions of Dollars in Erroneous
   Payments (Reference Number 2009-40-024, dated December 31, 2008).
 The TIGTA identified the IRS could address $5.6 billion in erroneous claims over a
 5-year period if it was able to systemically adjust the Earned Income Tax Credit claims with
 math error authority processing. However, the IRS does not plan to pursue expansion of math
 error authority to include these cases because it believes that use of probability filters to
 identify these cases is inconsistent with math error authority. The TIGTA recommended the
 IRS conduct a study of alternative processes that will expand the IRS’ ability to identify and
 adjust erroneous Earned Income Tax Credit claims for which data show that the taxpayer does
 not meet the Earned Income Tax Credit qualifying-child relationship and/or residency tests.
 The IRS agreed to continue its ongoing efforts to identify new alternatives to expand its
 treatment of Earned Income Tax Credit errors. These efforts include conducting a study of the
 Federal Case Registry information to determine its accuracy and applicability for exercising
 existing math error authority to deny the Earned Income Tax Credit during upfront processing
 of the tax return.
4. The 2008 Filing Season Was Generally Successful Despite the Challenges of Late and
   Unexpected Tax Legislation (Reference Number 2008-40-183, dated
   September 30, 2008).
 The TIGTA identified taxpayers age 70½ or older who improperly claimed and were allowed
 the Individual Retirement Account deduction and recommended the IRS ensure that the
 computer systems were programmed to identify taxpayer tax returns claiming Individual
 Retirement Account deductions for taxpayers age 70½ or older. However, IRS management
 did not agree citing that they did not have math error authority to enforce this condition.




                                                                                        Page 17
